DISTRICT COURT OF APPEAL, FIRST DISTRICT
2000 Drayton Drive
Tallahassee, Florida 32399-0950
Telephone No. (850)488-6151
December 16, 2020
CASE NO.: 1D20-2552
L.T. No.: 2019-CFMA-0866

Steven Cooper
Appellant / Petitioners),

v.

State of Florida
Appellee / Respondent(s)

BY ORDER OF THE COURT:
In light of Petitioner's response filed October 19, 2020, the order to show cause of
October 7, 2020, is hereby discharged.
The petition for writ of certiorari is denied on the merits.
LEWIS, BILBREY, and KELSEY, JJ., concur.
I HEREBY CERTIFY that the foregoing is (a true copy of) the original court order.
Served:
Hon. Ashley Moody, AG
Steven Cooper
co

KRISTINA SAMUELS, CLERK

Hon. Brantley S. Clark Jr.,
Judge

Filing # 112672293 E-Filed 08/31/2020 11:59:28 PM

In the District Court of Appeal
First District of Florida
CASE NO. 1D2003

<D

Oh

a,

Lower Court Case No.: 2019-CFMA-0866

<
<4-1
o

ts
o
O
o

STEVEN COOPER

B22

Petitioner,

:

Q
t»

Px

v.

Vi

<u

0

£

STATE OF FLORIDA;
Respondents,

m
o
o
tN
O

<N

o

<N

o
Os

O

Q

£

PETmON
FOR
CERTIORARI

i

f

'

W
U

s

/s/STEVEN COOPER
850-312-5243
P.O. BOX 18617
PANAMA CITY, FL 32417
AdversePossessionIsNotaCrime@gmail.com
Petitioner affirmatively seeks to discharge the trial court-appointed counsel due to
the incompetent, intentionally ineffective assistance provided.

1

PETITION FOR WRIT OF CERTIORARI
The petition of STEVEN COOPER shows there has been a departure from
the essential requirements of the law, resulting in material injury, and seeks to have
this court quash the trial courts Order Dismissing the “Motion for Hearing and
Order on Pleadings” and the “Motion to Dismiss the Information”.
An action styled State of Florida Vs. Steven Cooper, Case No.
019000866CFMA, is now pending in the 14th Judicial Circuit Court for Bay
County, Florida. The action was initiated in retaliation against the petitioners
submission of a written complaint to the Bay County Sheriff’s Office - after more
than a year of ongoing civil litigation between the petitioner, the Sheriffs Office
and the County where the petitioner sought mandamus to compel the Sheriffs
Office to comply with FS 95.18(9) after trespassing the petitioner from his
adversely held property despite his established possession, paying all delinquent
taxes and making the required form DR-452.
There exists an on ongoing conspiracy against the petitioner - in animosity
against his adverse possession and legal action seeking mere compliance with the
laws of this state -amongst the Bay County Government, the Bay County Sheriffs
Office, the State Attorney serving Bay County, and the trial judge allowing the
sham proceedings to continue while doing everything they can to deprive the
petitioner of his fundamental Constitutional rights, specifically his right to an
unbiased judge and a fair and impartial jury trial; all while knowing the trial court
does not have the requisite subject matter jurisdiction.

There exist too many

injustices for the petitioner to state herein therefore, only those pertinent to support
the relief requested will be stated. The following is provided in support thereof:

1

2

1. On June 1, 2020, petitioner filed a pro per “Motion to Discharge
Incompetent Ineffective Counsel”,

The trial court continues, to this day, to

intentionally ignore the pleading, refusing to hold the required Nelson and
Faretta hearings, willfully and maliciously depriving petitioner of his right to self
representation and affective assistance of counsel.
“The Defendant, STEVEN COOPER, moves the Court to discharge the
court appointed attorney from the Office of Criminal Conflict and Civil
Regional Counsel, Laura McCarthy, from any and all further
representation of the Defendant for the above styled case.
This Motion to Discharge Counsel is unequivocal and is necessitated by
the court appointed attorneys incompetence and current ineffective
representation, resulting in an attomey/client relationship deteriorated by
conflict of interests to the extent Defendant is unable to rely upon the
appointed attorneys ability to provide adequate and effective
representation.
WHEREFORE, the Defendant requests the Office of Criminal Conflict
and Civil Regional Counsel Laura McCarthy be discharged from any and
all further representation of the Defendant effective immediately.”

2. On July 14, 2020, petitioner filed a “Waiver of Right to Counsel” and
an accompanying “Notice of Pro Per Appearance”. The trial court continues, to
this day, to intentionally ignore these pleadings.
“The Defendant, STEVEN COOPER, hereby notifies the court of his
decision to waive his right to counsel. Defendant states unequivocally that
he waives his right to be represented by counsel.
Defendant has a general understanding of his rights and this decision to
proceed without counsel is made with eyes open. See Potts v. State, 718
So.2d 757. 760 (Fla. 1998). Defendant is aware of the dangers and
disadvantages of self-representation and for the record, declares that “he
knows what he is doing and his choice is made with eyes open.” 422 U.S.
at 835.95 S.Ct. 2525 (quoting Adams v. United States ex rel.
McCann, 317 U.S. 269.279. 63 S.Ct. 236. 87 L.Ed. 268 (1942)
The Sixth Amendment grants to each criminal defendant the right of self­
representation.
Under the United States Supreme Court's ruling
in Faretta, an accused has the right to self-representation at trial. A
defendant's choice to invoke this right ‘must be honored out of that respect
for the individual which is the lifeblood of the law.’ ” Tennis v. State, 997
2

3

So.2d 375. 377-78 (Fla.2008) (quoting Faretta, 422 U.S. at 834. 95 S.Ct.
2525): see also Pasha v. State. 39 So.3d 1259. 1261 (Fla.2010) “[T]he
Sixth and Fourteenth Amendments include a ‘constitutional right to
proceed without counsel when’ a criminal defendant ‘voluntarily and
intelligently elects to do so.’ ” Indiana v. Edwards, 554 U.S. 164.170.128
S.Ct. 2379. 171 L.Ed.2d 345 (2008) (quoting Faretta, 422 U.S. at 807. 95
S.Ct. 2525).”
“The Defendant, STEVEN COOPER, enters his appearance on behalf of
himself after having waived his right to counsel and requests that all future
pleadings and correspondence be directed to him in that capacity directly
to the following:
•
Email — AdversePossessionIsNotACrime@gTnail.com
•
Mail—PO Box 18617, Panama City Beach, FL, 32417
•
Phone - 850-312-5243”

3. On the very same day, July 14th, petitioner also filed a “Motion to
Dismiss the Information” and an accompanying “Motion for Hearing and Order
on Pleadings”. Out of the four aforementioned motions filed the same day, the
June 1st counsel discharge motion, and other not yet mentioned herein Motion for
Statement of Particulars also filed on June 1st and Motion to Recall Capias filed
by counsel on April 23rd - a total of seven pleadings awaiting judicial process only these two pleadings were addressed and specifically dismissed as null and
void pro se filings.
“The Defendant, STEVEN COOPER, moves the Court to dismiss the
information and charges of grand theft and criminal mischief for the
following reasons:
1.
Florida Statute 95.18(10) states “A person who occupies or
attempts to occupy a residential structure solely by claim of adverse
possession under this section [prior to making a return as required under
subsection (3), (95.18(9))] and offers the property for lease to another
commits theft under s. 812.014”
2.
The Defendant submitted the return as required under subsection
(3) of 95.18 to the Bay County Property Appraiser on December 29, 2017.
(copy attached)
3.
The Defendant has not, nor does the information charge him with,
offering “the property for lease to another”. Theft cannot be without
offering for lease and making a return.
3

4

Adverse possession is not a crime, Per Florida Law, an individual
commits theft if he occupies “solely by claim”, without making the
required return, and offers the property for lease. The return form DR-452
serves as notice to all who would challenge establishing the adverse
possession as a cause of action to which legal action may be brought. The
crime of theft, is specific to — the receipt of monies in connection with
offering “the property for lease”. Establishing adverse possession is no
crime, it is regulated and permitted by Florida State 95.18.
WHEREFORE, the Defendant requests the court dismiss the information
and charges against him and set him free of this sham prosecution.”
“The Defendant, STEVEN COOPER, moves the Court to review and
address the previously submitted pleadings and thereupon issue an order in
response thereof the following:
1.
Motion to Recall Capias — Docketed April 23,2020
2.

Motion to Discharge Incompetent Ineffective Counsel — Docketed
June 1,2020

3.

Motion for Statement of Particulars — Docketed June 1, 2020

4.

Notice Waiving Right to Counsel — Docketed July 14, 2020

5.

Motion to Dismiss — Docketed July 14,2020

The Supreme Court of Florida’s AOSC20-23 Guiding Principles state
presiding judges in all cases must consider the constitutional rights of
criminal defendant’s right of access to the courts by maintaining judicial
workflow to the maximum extent feasible and are directed to take all
necessary steps to facilitate the remote conduct of proceedings with the
use of technology, in part or in whole, of using telephonic or other
electronic means.
WHEREFORE, the Defendant requests the court schedule a hearing to be
conducted “with the use of technology” to address the above referenced
pleadings and matters.”

4. On July 31, 2020, the trial court entered an “Order Dismissing Pro Se
Motions”; this petitioned follows within the 30 day jurisdictional time
requirement.

4

5

THIS MATTER is before the Court on the Defendant’s pro se “Motion to Dismiss the
Information” and pro se “Motion for Hearing and Order on Pleadings” filed on July 14, 2020.
Having considered said Motions, court file and records, and being otherwise fully advised, this
Court finds that the Motions are due to be dismissed because the Court’s records reflect that the
Defendant is currently represented by counsel. As a result, he is not authorized to proceed pro se,
and any pro se filings are null and void. See Booker v. State. 807 So. 2d 800 (Fla. 1st DCA 2002).
5. On August 18, 2020, petitioner filed a “Verified Motion for
Disqualification” of the trial court judge after learning of the Order dismissing
the two specified motions. Again, unsurprisingly, the trial judge continues to this
day, to intentionally ignore the pleading and it is likely he will continue to do so
until ordered otherwise. Petitioner prays this court will take appropriate action to
remedy the ongoing malicious persecution of an innocent citizen in lull
compliance of FS 95.18, the adverse possession statute of this state.
Abuse of Discretion
The trial courts “blanket” denial, dismissal and disregard of petitioners pro
se pleadings is an abuse of discretion; especially after being made aware of conflict
amongst a defendant and his incompetent ineffective assigned counsel. The trial
court is required to hold hearings to inquire about the alleged conflicts and
incompetency and yet another hearing to determine the unequivocal request to self
represent. Instead, the trial court is using the assignment of counsel and its quote
“representation” as a rock to hold the defendant between it and the hard place of
not being able to speak for himself and not having adequate assistance of counsel
to speak for him. In effect, the assignment of “representation” is being maliciously
abused to silence and mute the defendant.

Lack of Subject Matter Jurisdiction
The petitioner has an inferred immunity from the below charges because he
has submitted the required return. The trial court was forced to confront the fact
5

6

that it does not possess the requisite subject matter jurisdiction in the case below
where an adverse possessor is being persecuted for theft despite making the
required return and, not leasing the property to another FS 95.18(9)(10). This is
why the trial court dismissed only the dismissal motion and request for hearings.
In doing so, the judge has forgone his immunity by knowingly acting outside of his
authority without subject matter jurisdiction. There exists no offense or crime
committed and a truly innocent citizen is being intentionally deprived of his rights.
WHEREFORE, the petitioner requests this court quash the trial courts Order
Dismissing Pro Se Motions, remand with instructions to grant the “Motion to
Dismiss the Information” and charges against him, set him free of this sham
prosecution and for any other appropriate relief.

Respectfully Submitted,
/s/ Steven Cooper. Pro Per
850-312-5243
POBox 18617, PCBFL, 32417
AdversePossessionIsNotACrime@gmail.com

6

7

CERTIFICATE OF SERVICE
r-r

I certify that a copy hereof has been furnished on this 31 day of August 2020, via
email and/or electronic service to Circuit Court Judge Brantley S. Clark, Jr. at
ClarkB@JUD14.FLCourts.org and Jennifer.moore@myfloridalegal.com, Attorney
for State of Florida Assistant Attorney General Office of the Attorney General Pl01, the Capitol Tallahassee, FI 32399-1050:
Respectfully Submitted,
/s/ Steven Cooper, Pro Per
850-312-5243
PO Box 18617, PCB FL, 32417
AdversePossessionIsNotACrime@gmail.com

CERTIFICATE OF COMPLIANCE
I certify that the size and style of type used in this brief is Courier New 12 point
Font and Times New Roman 14- point Font and complies with the font
requirements of Florida Rule of Appellate Procedure 9.210(a) (2).
Respectfully Submitted,
/s/ Steven Cooper. Pro Per
850-312-5243
POBox 18617, PCB FL, 32417
AdversePossessionIsNotACrime@gmail.com

7

IN THE CIRCUIT COURT
FOURTEENTH JUDICIAL CIRCUIT
OF THE STATE OF FLORIDA
IN AND FOR BAY COUNTY
CASE NO.: 19-0866-CFMA
r^»

CD

3>
-<o

STATE OF FLORIDA,

o|I5
oCr
c»r

^

Plaintiff,

-<oi

ZZ.

3'S>
occ

-0

vs.
STEVEN ALAN COOPER,

»S>

m
o

is>

T>

Defendant.

~n

ORDER DISMISSING PRO SE MOTIONS
THIS MATTER is before the Court on the Defendant’s pro se “Motion to Dismiss the
Information” and pro se “Motion for Hearing and Order on Pleadings” filed on July 14, 2020.
Having considered said Motions, court file and records, and being otherwise fully advised, this
Court finds that the Motions are due to be dismissed because the Court’s records reflect that the
Defendant is currently represented by counsel. As a result, he is not authorized to proceed pro se,
and any pro se filings are null and void. See Booker v. State. 807 So. 2d 800 (Fla. 1st DCA 2002).
Therefore, it is
ORDERED AND ADJUDGED that the Defendant’s Motions are hereby DISMISSED.
oiST*

DONE AND ORDERED in chambers, Bay County, Florida, this Qf day of
X

, 2020.

/3^

7

BRANTLEY S.TLARK, JR.
CIRCUIT JUDGE
I HEREBY CERTIFY that a true and exact copy of the foregoing has been provided by
e-portal, email, U.S. Mail, and/or hand delivery to the Defendant, Steven Alan Cooper, P.O. Box
18617, Panama City Beach, FL 32417; the Office of Criminal Conflict and Civil Regional Counsel,
ATTN: Laura McCarthy, P.O. Box 1789, Panama City, FL 32402; and the State Attorneys Office,
ATThL Calie Overstreet, P.O. Box 1040, Panama City, FL 32402, this3^~ day of

J3 ljuUj_______ , 2020.
Ann Nelson, Judicial Assistant

1

IN THE CIRCUIT COURT, IN AND FOR BAY COUNTY FLORIDA

STATE OF FLORIDA,
Plaintiff,
CASE NO. 019000866CFMA

vs.
STEVEN COOPER,
Defendant,

MOTION TO DISCHARGE INCOMPETENT INEFFECTIVE COUNSEL
The Defendant, STEVEN COOPER, moves the Court to discharge the court appointed
attorney from the Office of Criminal Conflict and Civil Regional Counsel, Laura McCarthy,
from any and all further representation of the Defendant for the above styled case.
This Motion to Discharge Counsel is unequivocal and is necessitated by the court
appointed attorneys incompetence and current ineffective representation, resulting in an
attomey/client relationship deteriorated by conflict of interests to the extent Defendant is unable
to rely upon the appointed attorneys ability to provide adequate and effective representation.
WHEREFORE, the Defendant requests the Office of Criminal Conflict and Civil
Regional Counsel Laura McCarthy be discharged from any and all further representation of the
Defendant effective immediately.
Respectfully Submitted,
/s/ Steven Cooper. Pro Per
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing document has been
furnished to the Office of the State Attorney at: 421 Magnolia Ave. Panama City, FL 32401 by
electronic service or mailing by pre-paid first class U.S. mail on this 1st day of June, 2020, Attn:
1. Calie Marie
Respectfully Submitted,
/s/ Steven Cooper. Pro Per

1

IN THE CIRCUIT COURT, IN AND FOR BAY COUNTY FLORIDA

STATE OF FLORIDA,
Plaintiff,
CASE NO. 019000866CFMA

vs.
STEVEN COOPER,
Defendant,

DEFENDANTS WAIVER OF RIGHT TO COUNSEL
The Defendant, STEVEN COOPER, hereby notifies the court of his decision to waive his
right to counsel. Defendant states unequivocally that he waives his right to be represented by
counsel.
Defendant has a general understanding of his rights and this decision to proceed without
counsel is made with eyes open. See Potts v. State, 718 So.2d 757, 760 (Fla. 1998). Defendant is
aware of the dangers and disadvantages of self-representation and for the record, declares that
“he knows what he is doing and his choice is made with eyes open.” 422 U.S. at 835. 95 S.Ct.
2525 (quoting Adams v. United States ex rel. McCann, 317 U.S. 269. 279. 63 S.Ct. 236. 87 L.Ed.
268(1942)
The Sixth Amendment grants to each criminal defendant the right of self-representation.
Under the United States Supreme Court's ruling in Faretta, an accused has the right to selfrepresentation at trial. A defendant's choice to invoke this right ‘must be honored out of that
respect for the individual which is the lifeblood of the law. *

n

Tennis v. State, 997 So.2d 375.

377—78 (Fla.2008) (quoting Faretta, 422 U.S. at 834. 95 S.Ct. 2525); see also Pasha v. State, 39
So.3d 1259. 1261 (Fla.2010) “[TJhe Sixth and Fourteenth Amendments include a ‘constitutional
right to proceed without counsel when’ a criminal defendant ‘voluntarily and intelligently elects
to do so.’ ” Indiana v. Edwards. 554 U.S. 164. 170. 128 S.Ct. 2379.171 L.Ed.2d 345 (20081
(quoting Faretta, 422 U.S. at 807. 95 S.Ct. 2525).
Respectfully Submitted,
/s/ Steven Cooper. Pro Per

2

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing document has been
furnished to the Office of the State Attorney at: 421 Magnolia Ave. Panama City, FL 32401 by
electronic service or mailing by pre-paid first class U.S. mail on this 13th day of July, 2020,
Attn:
l. Calie Marie
Respectfully Submitted,
/s/ Steven Cooper, Pro Per
Steven Cooper
850-312-5243
POBox 18617, PCBFL, 32417
AdversePossessionIsNotACrime@gmail.com

1

IN THE CIRCUIT COURT, IN AND FOR BAY COUNTY FLORIDA

STATE OF FLORIDA,
Plaintiff,
CASE NO. 019000866CFMA

vs.
STEVEN COOPER,
Defendant,

DEFENDANTS NOTICE OF PRO PER APPEARANCE
The Defendant, STEVEN COOPER, enters his appearance on behalf of himself after
having waived his right to counsel and requests that all future pleadings and correspondence be
i

*

directed to him in that capacity directly to the following:
•

Email — AdversePossessionIsNotACrime@gmail.com

•

Mail —PO Box 18617, Panama City Beach, FL, 32417

•

Phone-850-312-5243
i

'I

Respectfully Submitted,
/s/ Steven Cooper. Pro Per
CERTIFICATE OF SERVICE
'1

I HEREBY CERTIFY that a true and correct copy of the foregoing document has been

furnished to the Office of the State Attorney at: 421 Magnolia Ave. Panama City, FL 32401 by
electronic service or mailing by pre-paid first class U.S. mail on this 14th day of July, 2020,
Attn:

“

1. Calie Marie
Respectfully Submitted,
/s/ Steven Cooper. Pro Per
850-312-5243
PO Box 18617, PCB FL, 32417
AdversePossessionIsNotACrime@gmail.com

1

IN THE CIRCUIT COURT, IN AND FOR BAY COUNTY FLORIDA

STATE OF FLORIDA,
Plaintiff,
vs.

CASE NO. 019000866CFMA

STEVEN COOPER,
Defendant,
DEFENDANTS MOTION TO DISMISS THE INFORMATION
The Defendant, STEVEN COOPER, moves the Court to dismiss the information and
charges of grand theft and criminal mischief for the following reasons:
1. Florida Statute 95.18(10) states “A person who occupies or attempts to occupy a
residential structure solely by claim of adverse possession under this section [prior to making a
return as required under subsection (3), (95.18(9))] and offers the property for lease to another
commits theft under s. 812.014”
2. The Defendant submitted the return as required under subsection (3) of 95.18 to
the Bay County Property Appraiser on December 29, 2017. (copy attached)
3. The Defendant has not, nor does the information charge him with, offering “the
property for lease to another”. Theft cannot be without offering for lease and making a return.
Adverse possession is not a crime. Per Florida Law, an individual commits theft if he
occupies “solely by claim”, without making the required return, and offers the property for lease.
The return form DR-452 serves as notice to all who would challenge establishing the adverse
possession as a cause of action to which legal action may be brought. The crime of theft, is
specific to — the receipt of monies in connection with offering “the property for lease”.
Establishing adverse possession is no crime, it is regulated and permitted by Florida State 95.18.
WHEREFORE, the Defendant requests the court dismiss the information and charges
against him and set him free of this sham prosecution.
Respectfully Submitted,
/si Steven Cooper. Pro Per

